No. 20-164
IN THE

Supreme Court of the United States
TRUSTEES OF THE NEW LIFE IN CHRIST CHURCH,
Petitioner,
v.
CITY OF FREDERICKSBURG, VIRGINIA,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE CIRCUIT COURT OF THE CITY OF
FREDERICKSBURG, VIRGINIA

CERTIFICATE OF SERVICE
I, Matthew T. Martens, a member of the bar of this Court, hereby certify that, on
this 3rd day of September, 2021, all parties required to be served have been served
copies of the Brief for Amicus Curiae The Coalition for Jewish Values in Support of
Petitioner in this matter by overnight courier to the addresses on the attached service
list.

MATTHEW T. MARTENS
WILMER CUTLER PICKERING
HALE AND DORR LLP
1875 Pennsylvania Ave., NW
Washington, DC 20006
(202) 663-6000
matthew.martens@wilmerhale.com

SERVICE LIST
ALLYSON HO
GIBSON, DUNN & CRUTCHER LLP
2001 Ross Avenue, Suite 2100
Dallas, TX 75201
(214) 698-3233
aho@gibsondunn.com
JOHN A. RIFE
TAXING AUTHORITY CONSULTING SERVICES, P.C.
P.O. Box 31800
Henrico, VA 23294
(804) 545-2500
john@taxva.com
KATHLEEN DOOLEY
FREDERICKSBURG CITY ATTORNEY
600 Caroline Street
Fredericksburg, VA 22401
(540) 372-1020
kdooley@fredericksburgva.gov

